                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    Fiscal Years 2012 and 2011
                    (Restated) Financial
                    Statements for the
                    Pesticide Registration Fund
                    Report No. 14-1-0042                December 17, 2013




Scan this code to
learn more about
the EPA OIG.
Report Contributors:	                                Paul Curtis
                                                     Robert Smith
                                                     Kelly Bonnette
                                                     Edgar Dumeng
                                                     Sabrina Jones
                                                     Carol Kwok
                                                     Mairim Lopez
                                                     Claire McWilliams
                                                     Guillermo Mejia
                                                     Demetrios Papakonstantinou
                                                     Myka Sparrow
                                                     Lynda Taylor




Abbreviations

EPA             U.S. Environmental Protection Agency
EPM             Environmental Programs and Management
FIFRA           Federal Insecticide, Fungicide, and Rodenticide Act
FMFIA           Federal Managers’ Financial Integrity Act
FY              Fiscal Year
OCFO            Office of the Chief Financial Officer
OIG             Office of Inspector General
OMB             Office of Management and Budget
OPP             Office of Pesticide Programs
PRIA            Pesticide Registration Improvement Act



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

 us through one of the following methods:       contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

           1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T 

           Washington, DC 20460
                          Washington, DC 20460
                      U.S. Environmental Protection Agency 	                                              14-1-0042
                                                                                                   December 17, 2013
                      Office of Inspector General


                      At a Glance

Why We Did This Review               Fiscal Years 2012 and 2011 (Restated) Financial Statements
                                     for the Pesticide Registration Fund
The Pesticide Registration
Improvement Act requires that we      EPA Receives an Unqualified
perform an annual audit of the
Pesticide Registration Fund          We rendered an unqualified, or clean, opinion on the EPA’s Pesticide
(known as the PRIA Fund)             Registration Fund financial statements for fiscal years (FYs) 2012 and 2011
financial statements.                (restated), meaning they are fairly presented and free of material misstatement.
To expedite the registration of       Internal Control Material Weaknesses Noted
certain pesticides, Congress
authorized the U.S.                  We noted two material weaknesses in internal controls.      The agency
Environmental Protection Agency                                                                  corrected material
(EPA) to assess and collect          	   EPA materially overstated the expenses from other      misstatements due
pesticide registration fees. The          appropriations that support the PRIA fund. This        to weaknesses in
fees collected are deposited into         occurred because the agency does not have an           internal controls we
the PRIA Fund. The agency is              effective system to accurately accumulate and          identified.
required to prepare financial             report costs incurred by other appropriations in
statements that present financial         support of PRIA Fund activities. This overstatement resulted in a material
information about the PRIA Fund.          overstatement of the total costs of the PRIA Fund by $14.1 million in FY
PRIA also requires the                    2012 and $1.7 million in FY 2011.
establishment of decision time
review periods for pesticide          	 EPA materially understated the PRIA fund payroll liabilities covered by
registration actions, and requires       budgetary resources as well as related payroll expense included in gross
the Office of Inspector General to       costs. The agency’s practice of transferring employees and related
perform an analysis of the               expenses and liabilities from PRIA to the Environmental Programs and
agency’s compliance with those           Management Fund for cash flow reasons led to the understatement. The
review periods.                          FY 2011 payroll liabilities covered by budgetary resources for PRIA was
                                         $500,000, while the FY 2012 payroll liabilities covered by budgetary
This report addresses the                resources was zero.
following EPA theme:
                                      Compliance with Decision Time Review Periods
 Embracing EPA as a high
  performing organization.           The agency was in compliance with applicable laws and regulations.

                                      Recommendations and Planned Agency Corrective Actions

                                     The agency agreed with our findings and our recommendations. The agency
For further information,             corrected the financial statements to reflect the proper expenses paid by other
contact our public affairs office    appropriations and to reflect the proper payroll liability amounts. The agency
at (202) 566-2391.                   will also develop a process to ensure accurate allocations of expenses from
                                     other appropriations that support the PRIA fund and carefully review and
The full report is at:               comment on the draft and final versions of the PRIA financial statements prior
www.epa.gov/oig/reports/2014/        to their submission to the Office of Inspector General. The agency will also
20131217-14-1-0042.pdf               closely monitor the payroll amounts.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




                                          December 17, 2013

MEMORANDUM

SUBJECT:	 Fiscal Years 2012 and 2011 (Restated) Financial Statements for the
          Pesticide Registration Fund
          Report No. 14-1-0042

FROM:	         Paul C. Curtis
               Director, Financial Statement Audits

TO:	           Jim Jones, Assistant Administrator
               Office of Chemical Safety and Pollution Prevention

               Maryann Froehlich, Acting Chief Financial Officer

Attached is our report on the U.S. Environmental Protection Agency’s (EPA’s) fiscal years 2012 and
2011 (restated) financial statements for the Pesticides Registration Fund, conducted by the EPA Office
of Inspector General (OIG). This audit report represents the opinion of the OIG, and the findings in this
report do not necessarily represent the final EPA position. EPA managers, in accordance with
established EPA audit resolution procedures, will make final determinations on the findings in this audit
report. Accordingly, the findings described in this audit report are not binding upon EPA in any
enforcement proceeding brought by EPA or the Department of Justice. This report will be available at
http://www.epa.gov/oig.

In accordance with EPA Manual 2750, we are closing this report on issuance in our tracking system.
You should track progress of your corrective actions in the Management Audit Tracking System.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
Acting Assistant Inspector General for Audit, at (202)566-0565 or eyermann.richard@epa.gov;
or Paul Curtis, Director, Financial Statement Audits, at (202)566-2523 or Curtis.Paul@epa.gov
Fiscal Years 2012 and 2011 (Restated) Financial Statements                                                               14-1-0042
for the Pesticide Registration Fund




                                    Table of Contents 


Inspector General’s Report on the Fiscal Years 2012 and 2011 

(Restated) Financial Statements for the Pesticide Registration Fund 


   Opinion on the PRIA Fund Financial Statements..........................................................                      1


   Evaluation of Internal Controls ......................................................................................       2


   Test of Compliance With Laws and Regulations...........................................................                      4


   Management’s Discussion and Analysis Section of the Financial Statements .............                                       4


   Prior Audit Coverage.....................................................................................................    4


   Agency Comments and OIG Evaluation .......................................................................                   5



Attachments

   1. Material Weaknesses ............................................................................................          6


          EPA Materially Overstated Expenses From 

          Other Appropriations That Support PRIA .............................................................                  7


          EPA Understated PRIA Payroll Liabilities 

          Covered by Budgetary Resources .......................................................................                9


   2. Status of Recommendations and Potential Monetary Benefits ........................                                       11



Appendices

   A      Fiscal Year 2012 and 2011 (Restated) PRIA Financial Statements

   B      Agency’s Response to Draft Report

   C      Distribution
            Inspector General’s Report on the 

     Fiscal Years 2012 and 2011 (Restated) Financial 

     Statements for the Pesticide Registration Fund 

            The Administrator
            U.S. Environmental Protection Agency

            We have audited the Pesticide Registration Fund (known as the PRIA Fund)
            balance sheet as of September 30, 2012 and 2011 (restated), and the related
            statements of net cost, changes in net position, and budgetary resources for the
            years then ended. These financial statements are the responsibility of
            U.S. Environmental Protection Agency (EPA) management. Our responsibility is
            to express an opinion on these financial statements based upon our audit.

            We conducted our audit in accordance with the generally accepted auditing
            standards; the standards applicable to financial statements contained in
            Government Auditing Standards, issued by the Comptroller General of the United
            States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
            Audit Requirements for Federal Financial Statements, as Amended. These
            standards require that we plan and perform the audit to obtain reasonable
            assurance as to whether the financial statements are free of material
            misstatements. An audit includes examining, on a test basis, evidence supporting
            the amounts and disclosures in the financial statements. An audit also includes
            assessing the accounting principles used and significant estimates made by
            management, as well as evaluating the overall financial statement presentation.
            We believe that our audit provides a reasonable basis for our opinion.

            The agency has restated the PRIA Fund financial statements for fiscal year (FY)
            2011 due to material errors in the computation of expenses from other
            appropriations that support PRIA Fund activities. There errors resulted in an
            overstatement of these expenses by $14.1 million in FY 2012 and $1.7 million in
            FY 2011. The agency has restated the FY 2011 financial statements to reflect the
            decrease of the expenses from other appropriations that support the PRIA Fund
            and made corresponding adjustments to the other related accounts. Due to
            material errors found in the computation of the expenses from other
            appropriations that support PRIA Fund activities and other related accounts, our
            report on the PRIA Fund FY 2011 financial statements, issued on June 6, 2012, is
            not to be relied upon. That report is replaced by this report on the restated
            FY 2011 PRIA Fund financial statements. We report the internal control
            deficiency that resulted in the material errors as a material weakness in the
            Internal Control section of this report.




14-1-0042                                                                                      1
            In our opinion, the financial statements, including the accompanying notes,
            present fairly, in all material respects, the assets, liabilities, net position, changes
            in net position and budgetary resources of the PRIA Fund, as of and for the years
            ending September 30, 2012 and 2011, as restated, in conformity with accounting
            principles generally accepted in the United States of America.

Evaluation of Internal Controls
            As defined by OMB, internal control, as it relates to the financial statements, is a
            process, affected by the agency’s management and other personnel, that is
            designed to provide reasonable assurance that the following objectives are met:

                    Reliability of financial reporting – Transactions are properly recorded,
                    processed and summarized to permit the preparation of the financial
                    statements in accordance with generally accepted accounting principles,
                    and assets are safeguarded against loss from unauthorized acquisitions, use
                    or disposition.

                    Compliance with applicable laws, regulations and governmentwide
                    policies – Transactions are executed in accordance with laws governing
                    the use of budget authority, governmentwide policies, laws identified by
                    OMB, and other laws and regulations that could have a direct and material
                    effect on the financial statements.

            In planning and performing our audit, we considered the EPA’s internal control
            over the Pesticide Registration Improvement Act (PRIA) financial reporting by
            obtaining an understanding of the agency’s internal controls, determining whether
            internal controls had been placed in operation, assessing control risk, and
            performing tests of controls. We did this as a basis for designing our auditing
            procedures for the purpose of expressing an opinion on the financial statements
            and to comply with OMB audit guidance, not to express an opinion on internal
            control. Accordingly, we do not express an opinion on internal control over
            financial reporting or on management’s assertion on internal controls included in
            Management’s Discussion and Analysis. We limited our internal control testing to
            those controls necessary to achieve the objectives described in OMB Bulletin No.
            07-04, Audit Requirements for Federal Financial Statements, as Amended. We
            did not test all internal controls relevant to operating objectives as broadly defined
            by the Federal Managers’ Financial Integrity Act (FMFIA) of 1982, such as those
            controls relevant to ensuring efficient operations.

            Our consideration of the internal controls over financial reporting would not
            necessarily disclose all matters in the internal control over financial reporting that
            might be significant deficiencies. Under standards issued by the American
            Institute of Certified Public Accountants, a significant deficiency is a deficiency,
            or combination of deficiencies, in internal controls that is less severe than a
            material weakness, yet important enough to merit attention by those charged with


14-1-0042                                                                                              2
            governance. A material weakness is a deficiency, or combination of deficiencies,
            in internal controls, such that there is a reasonable possibility that a material
            misstatement of the entity’s financial statements will not be prevented, or detected
            and corrected, in a timely basis. Because of inherent limitations in internal
            controls, misstatements, losses or noncompliance may nevertheless occur and not
            be detected. We noted two matters involving the internal controls and their
            operations that we considered to be a material weakness.

            Material Weaknesses

            Material weaknesses noted are summarized below and detailed in attachment 1.

               EPA Materially Overstated the Expenses From Other Appropriations
               That Support PRIA. EPA materially overstated the expenses from other
               appropriations that support the PRIA fund. This occurred because the agency
               does not have an effective system to accurately accumulate and report costs
               incurred by other appropriations in support of PRIA Fund activities. This
               overstatement of the expenses from other appropriations resulted in a material
               overstatement of the total costs of the PRIA Fund by $14.1 million in
               FY 2012 and $1.7 million in FY 2011. This overstatement could impact the
               opinion on the financial statements and reliance on reported PRIA financial
               information.

               EPA Understated PRIA Payroll Liabilities Covered by Budgetary
               Resources. EPA materially understated the PRIA fund payroll liabilities
               covered by budgetary resources as well as related payroll expense included in
               gross costs. The agency’s practice of transferring employees and related
               expenses and liabilities from PRIA to the Environmental Programs and
               Management (EPM) Fund for cash flow reasons led to the understatement.
               The FY 2011 payroll liabilities covered by budgetary resources for PRIA was
               $500,000, while the FY 2012 payroll liabilities covered by budgetary
               resources was zero. Such understatements could impact the opinion on the
               financial statements and reliance on reported PRIA financial information.

            Comparison of EPA’s FMFIA Report and With Our Evaluation of
            Internal Controls

            OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
            as Amended, requires us to compare material weaknesses disclosed during the
            audit with those material weaknesses reported in the agency’s FMFIA report that
            relate to the financial statements and identify material weaknesses disclosed by
            the audit that were not reported in the agency’s FMFIA report.

            For financial statement, audit and financial reporting purposes, OMB defines
            material weaknesses in internal control as a deficiency or combination of
            deficiencies in internal control, such that there is a reasonable possibility that a



14-1-0042                                                                                          3
            material misstatement of the financial statements will not be prevented or detected
            and corrected on a timely basis. The agency did not report any material weakness
            for FY 2012 impacting the PRIA Fund; however, we identified a material
            weakness with the agency’s reporting payroll and benefit payable. Details
            concerning these material weaknesses are in attachment 1.

Tests of Compliance With Laws and Regulations
            In accordance with PRIA, the Administrator is required to publish a schedule of
            decision time review periods for pesticide registration actions and corresponding
            registration fees in the Federal Register. Decision time review periods are
            specified time limits for the agency to grant or deny pesticide registrations.
            PRIA also requires the Office of Inspector General (OIG) to perform an analysis
            of the agency’s compliance with decision time review periods. The agency was in
            compliance with the statutory decision timeframes.

            As part of obtaining a reasonable assurance as to whether the agency’s financial
            statements are free of material misstatement, we tested compliance with those
            laws and regulations that could either materially affect the PRIA financial
            statements or that we considered significant to the audit. The objective of our
            audit, including our tests of compliance with applicable laws and regulations,
            was not to provide an opinion on overall compliance with such provisions.
            Accordingly, we do not express such an opinion. We did not identify any
            noncompliances that would result in a material misstatement to the audited
            financial statements.

Management’s Discussion and Analysis Section of the Financial
Statements

            Our audit work related to the information presented in the Management’s
            Discussion and Analysis of the pesticide program included comparing the
            overview information with information in the EPA’s principal financial
            statements for consistency. We did not identify any material inconsistencies
            between the information presented in the two documents.

Prior Audit Coverage

            During previous financial statement audits, we reported the following significant
            deficiencies. EPA materially understated the PRIA payroll and benefits payable,
            and related payroll expenses included in gross costs, in FY 2011. The agency’s
            practice of transferring employees and expenses and liabilities from PRIA to the
            EPM Fund for cash flow reasons led to the understatement. The agency did not
            record accounts receivable for a PRIA fee until the payments were 18 months
            overdue. The finance center was unable to record an allowance because there was
            no accounting model for a PRIA allowance for doubtful accounts.



14-1-0042                                                                                      4
             The agency has taken action to correct the deficiencies by correcting the FY 2011
             payroll and benefits payable amounts in the PRIA Fund financial statements. The
             agency has established general ledger posting models in Compass for PRIA
             allowances and possible write-offs as well as policies and procedures that identify
             when receivables should be recorded for nonpayment of PRIA fees.

Agency Comments and OIG Evaluation
             In a memorandum dated November 19, 2013, the agency responded to our draft
             report. The agency agreed with our findings and recommendations. The agency’s
             complete response is included as appendix B to this report.




Paul C. Curtis
Director, Financial Statement Audits
Office of Inspector General
U.S. Environmental Protection Agency
December 17, 2013




14-1-0042                                                                                      5
                                                                                               Attachment 1 


                                   Material Weaknesses
                                            Table of Contents

1 – 	EPA Materially Overstated Expenses From 

     Other Appropriations That Support PRIA. ........................................................       7


2 – 	EPA Understated PRIA Payroll Liabilities 

     Covered by Budgetary Resources......................................................................   9





14-1-0042                                                                                                   6
                1 – EPA Materially Overstated Expenses From
                   Other Appropriations That Support PRIA

In its draft financial statements for FY 2012 and financial statements for FY 2011, the EPA
materially overstated the expenses from other appropriations that support the PRIA Fund.
This occurred because the agency does not have an effective or efficient system to accurately
accumulate and report the costs incurred by other appropriations in support of PRIA Fund
activities. This overstatement of the expenses from other appropriations resulted in a material
overstatement of the total costs of the PRIA Fund by $14.1 million in FY 2012 and $1.7 million
in FY 2011

The U.S. Government Accountability Office’s Standards for Internal Control in the Federal
Government require accurate and timely recording of transactions and events. The FMFIA
emphasizes the need for agencies to provide reasonable assurance that accounts are properly
recorded and accounted for to ensure reliability of financial reporting.

PRIA activities are funded by the collection of service fees from pesticides manufacturers which
supplement the Office of Pesticide Programs’ (OPP’s) appropriated funds. Our audit work on
the FY 2012 PRIA Fund financial statements showed that all of OPP’s FYs 2012 and 2011
EPM expenses were being charged to either PRIA or the Pesticides Reregistration and
Expedited Processing Fund (known as the FIFRA Fund). It is incorrect to charge all of OPP’s
EPM expenses to FIFRA and PRIA because OPP uses its EPM funds for all of its activities and
not just for activities related to FIFRA or PRIA. After we identified this error, the Office of the
Chief Financial Officer (OCFO) worked with OPP to compute the correct amount of FYs 2012
and 2011 expenses from other appropriations that supported the PRIA Fund. The improper
charging of OPP’s EPM expenses to PRIA resulted in the total costs of the PRIA program being
overstated by $14.1 million in FY 2012 and $1.7 million in FY 2011. This material error caused
the agency to restate the FY 2011 financial statements to reflect the decrease of the expenses
from other appropriations that support the PRIA Fund and to make corresponding adjustments
to the other related accounts.

Historically, the OCFO has been producing the PRIA financial statements based solely upon
information contained in the EPA’s accounting system. However, the EPA’s accounting system
does not contain sufficiently detailed information to accurately identify OPP’s other
appropriated expenses that relate solely to the PRIA Fund activities. While OPP does know
what expenses from other appropriations support PRIA activities, it has not developed an
effective and efficient method to accumulate and report these costs. The method that OPP and
OCFO recently developed to revise and correct the FYs 2012 and 2011 amount of expenses
from other appropriations that support PRIA relies heavily on manual computations. These
manual computations are inefficient and prone to error.

Another contributing factor to the error which resulted in the material overstatement of the
expenses from other appropriations is the lack of involvement by OPP in the financial statement
preparation process. While the OCFO prepares the PRIA Fund financial statements, it does not



14-1-0042                                                                                         7
have extensive knowledge of OPP business operations. Until we identified the error in the
FYs 2012 and 2011 expenses from other appropriations that support PRIA, OPP had not
reviewed the draft FY 2012 PRIA Fund financial statements. If OPP had carefully reviewed the
draft financial statements prior to its submission to the OIG, this material error may have been
avoided.

Recommendations

We recommend that the Office of the Chief Financial Officer:

   1.	 Correct the PRIA financial statements to reflect the proper expenses paid by other 

       appropriations. 


   2.	 Ask OPP to carefully review and comment on the draft and final versions of the PRIA
       Fund financial statements prior to their submission to the OIG.

We recommend that the Office of Chemical Safety and Pollution Prevention:

   3.	 In consultation with the OCFO and other subject matter experts, develop a process that
       will provide accurate and timely allocation of EPM expenses from other appropriations
       that support the PRIA Fund.

Agency Response and OIG Evaluation

The agency agreed with our findings and recommendations, and has completed corrective
actions on recommendation 1.

Agency actions on recommendation 2 are pending. OCFO will request the Office of Chemical
Safety and Pollution Prevention to carefully review and comment on the draft and final versions
of the PRIA Fund financial statements prior to their submission to the OIG. The estimated
completion date for this corrective action is March 28, 2014.

Agency actions on recommendation 3 are pending. The Office of Chemical Safety and Pollution
Prevention, in consultation with OCFO and other subject matter experts, will develop a process
to ensure accurate allocations of expenses from other appropriations that support the PRIA Fund.
The estimated completion date for this corrective action is December 31, 2014.

The agency’s complete response is included in appendix B to this report. We agree with the
agency’s proposed corrective actions and believe they adequately address the issues raised.




14-1-0042                                                                                          8
                  2 – EPA Understated PRIA Payroll Liabilities
                       Covered by Budgetary Resources
In its draft financial statements for FY 2012, EPA materially understated the PRIA fund payroll 

liabilities covered by budgetary resources, as well as related payroll expense included in gross 

costs. OMB Circular A-136, Financial Reporting Requirements, and Statement of Federal 

Financial Accounting Standards No. 5 require that liabilities be recognized when they are 

incurred. The agency’s practice of transferring employees and related expenses and liabilities 

from PRIA to the EPM Fund for cash flow reasons led to the understatement. The FY 2011 

payroll liabilities covered by budgetary resources for PRIA was $500,000, while the FY 2012 

payroll liabilities covered by budgetary resources was zero. Such understatements could impact 

the opinion on the financial statements and the reliance on reported PRIA financial information. 

This understatement is a recurring issue which needs resolution. 


Statement of Federal Financial Accounting Standards No. 5 states that liabilities should be 

recognized for exchange transaction, such as when a federal employee performs services in 

exchange for compensation, when the services are provided. OMB Circular No. 136 states: 

“Liabilities shall be recognized when they are incurred regardless of whether they are covered by 

available budgetary resources.” 


OPP transferred all employees from PRIA to EPM at the end of FY 2012 pay period 13. 

EPA uses EPM for a broad range of abatement, prevention and compliance activities and 

personnel compensation, benefits, travel and expenses for all programs of the agency. On 

average, 58 employees were assigned PRIA throughout FY 2012. The transfer removed the base 

upon which the payroll liabilities covered by budgetary resources are calculated. As a result, 

payroll liabilities covered by budgetary resources were significantly understated. 


EPA began the practice of moving payroll expenses from PRIA to EPM in FY 2000. When 

PRIA resources are low, the agency transfers employees from PRIA to EPM to keep PRIA 

obligations and disbursements within budgetary and cash limits. As PRIA fees are collected, 

employees are moved back to the PRIA appropriation. EPA disclosed this ongoing practice in 

prior PRIA financial statement reports, and this practice is expected to continue throughout 

FY 2013. Temporarily moving employees for cash flow reasons should not impact accruals as 

long as those employees are continuing the same work. If the transfers become permanent, PRIA 

should recognize a benefit since another appropriation would be covering the accrued payroll 

debt. 


The process of moving employees and related payroll expenses and liabilities from PRIA to 

EPM contributed to the understatement of the PRIA payroll liabilities in the draft FY 2012 

financial statements. However, the OCFO should have realized that the transfer of employees 

from PRIA to EMP was only temporary and computed payroll liability amounts accordingly.





14-1-0042                                                                                        9
Recommendations

We recommend that the Office of the Chief Financial Officer:

   4. Correct the PRIA financial statements to reflect the proper payroll liability amounts.

   5. Closely monitor the payroll liability amounts for PRIA at year-end.


Agency Response and OIG Evaluation

The agency agreed with our findings and recommendation, and has completed corrective actions
on recommendation 4. OCFO corrected the PRIA financial statements to reflect the proper
payroll liability amounts.

Agency actions on recommendation 5 are pending. The estimated completion date for this
corrective action is September 30, 2014.

The agency’s complete response is included in appendix B to this report.




14-1-0042                                                                                      10
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1       Action Official            Date      Amount      Amount

     1        8     Correct the PRIA financial statements to reflect the     C             Office of the          09/24/13
                    proper expenses paid by other appropriations.                     Chief Financial Officer

     2        8     Ask OPP to carefully review and comment on the           O             Office of the          03/28/14
                    draft and final versions of the PRIA Fund financial               Chief Financial Officer
                    statements prior to their submission to the OIG.

     3        8     In consultation with the OCFO and other subject          O       Office of Chemical Safely    12/31/14
                    matter experts, develop a process that will provide              and Pollution Prevention
                    accurate and timely allocation of EPM expenses
                    from other appropriations that support the PRIA
                    Fund.

     4       10     Correct the PRIA financial statements to reflect the     C             Office of the          02/26/13
                    proper payroll liability amounts.                                 Chief Financial Officer

     5       10     Closely monitor the payroll liability amounts for        O             Office of the          09/30/14
                    PRIA at year-end.                                                 Chief Financial Officer




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progres




14-1-0042                                                                                                                                       11
                                                                       Appendix A

         FYs 2012 and 2011 (RESTATED) PESTICIDE 

               REGISTRATION FUND (PRIA) 

                 FINANCIAL STATEMENTS 





              Produced by the U.S. Environmental Protection Agency 

                      Office of the Chief Financial Officer 

                        Office of Financial Management





14-1-0042

                           TABLE OF CONTENTS 





Management’s Discussion and Analysis                             1   

Principal Financial Statements                                   8   





14-1-0042       EPA’s FY 2012 Annual PRIA Financial Statements
    Management’s Discussion and Analysis





14-1-0042   EPA’s FY 2012 Annual PRIA Financial Statements   1
      MANAGEMENT’S DISCUSSION AND ANALYSIS


        The Agency’s Office of Pesticide Programs (OPP) was established to administer the
Federal Insecticide, Fungicide and Rodenticide Act (FIFRA) to protect public health and the
environment. The law requires the Agency to balance public health and environmental concerns
with the expected economic benefits derived from pesticides. The guiding principles of the
pesticide program are to reduce risks from pesticides in food, the workplace, and other exposure
pathways and to prevent pollution by encouraging the use of new and safer pesticides.

         With passage of the Pesticide Registration Improvement Act (PRIA) of 2003, the
pesticide program now administers the Pesticide Registration Fund. PRIA authorizes the
collection of new fees for pesticide registrations. Registration service fees are deposited into the
Registration Fund and made available for obligation to the extent provided in appropriation Acts,
and are available without fiscal year limitation.

                                     Pesticide Registration

        Under the authority of FIFRA and the Federal Food, Drug, and Cosmetic Act (FFDCA)
as amended by the Food Quality Protection Act (FQPA), no person or State can distribute or sell
any pesticide that is not registered with the Agency. The pesticide registration program works to
decrease the risk to the public from pesticide use through the regulatory review of new
pesticides. In 2004, Congress passed PRIA 1, with deadlines for completion of certain
registration actions. As part of the registration program, EPA expedites the registration of
reduced-risk pesticide uses, which are generally presumed to pose lower risks to consumers,
workers, groundwater, and/or wildlife. These accelerated pesticide reviews provide an incentive
for industry to develop, register, and use lower risk pesticides. Additionally, the availability of
these reduced-risk pesticides provides alternatives to older, potentially more harmful products
currently on the market.

        Biological agents are potential weapons that could be exploited by terrorists against the
United States. EPA’s pesticides antimicrobial program is working to help address this threat.
Antimicrobials play an important role in public health and safety. EPA is conducting
comprehensive scientific assessments and developing test protocols to determine the safety and
efficacy of products used against chemical and biological weapons of mass destruction, and
registering products as necessary. EPA is also developing a timeline for prioritizing and
implementing the tests. In addition, the Section 18 program provides emergency exemption to
any part of FIFRA. This authority is typically used by States on an emergency basis. EPA has
recently used this authority to help with homeland security. Section 18 exemptions have been
authorized to help with anthrax and soybean rust.

        PRIA established registration service fees for certain antimicrobials, biopesticides and
conventional pesticides registration actions. The category of action, the amount of the
registration service fee, and the corresponding decision review periods by year are prescribed in
the statute. The goal is to create a more predictable evaluation process for affected pesticide
decisions, and couple the collection of individual fees with specific decision review periods. The

           14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements            2
legislation also promotes shorter decision review periods for reduced-risk applications. PRIA 1
became effective on March 23, 2004, and the collection of registration fees were authorized
through FY 2008. PRIA 1 was reauthorized with passage of the Pesticide Registration
Improvement Renewal Act (commonly referred to as PRIA 2) on October 9, 2007. PRIA 2
became effective retroactive to October 1, 2007, and the collection of registration fees were
authorized through FY 2012. PRIA 2 was reauthorized with the passage of the Pesticide
Registration Improvement Extension Act (referred to as PRIA 3) on September 28, 2012 and
became effective 2 days later on October 1, 2012.

         In order for a pending or a new application covered by PRIA to be deemed complete and
subject to the decision review periods, a registrant is required to pay the applicable fee or receive
a waiver from the fees. For most applications, the decision review period starts 21 days after
submission of the application - provided that the fee has been paid, fee waiver granted or in the
case of a 75% or 50% fee waiver under PRIA 3, the fee has been paid and waiver granted. The
legislation provides fee waivers for certain categories of small businesses, and minor uses1.
Exemption from the requirement to pay a registration service fee is continued under PRIA 3 for
applications solely associated with IR-4 petitions2. Applications from federal and state agencies
are also exempt from registration service fees. If the registrant requests a waiver or reduction of
the fee, the decision review period will begin when the Agency grants such request or in the case
of small business fee waivers, no more than 60 days after receipt of the waiver application. If it
is determined that a fee is required and thus the waiver is not granted, the decision review period
starts after the fee is collected.

         Applications received prior to October 1, 2007 were covered by PRIA 1. Applications
received up to September 30, 2012 were covered by PRIA 23 and applications received on or
after October 1, 2012 are covered by PRIA 3. PRIA 3 contains the same audit provision as PRIA
2. PRIA 3 provides new authority to reject an application if an application fails a preliminary
technical screen; PRIA 3 increases the fee categories or types of applications covered by PRIA
from 140 to 189, and maintains set asides to support worker protection and applicator training
activities as well as IPM grants at comparable levels to PRIA 2.

                                       Research Program Description

EPA’s Chemical Safety for Sustainability (CSS) research program is leading the sustainable
development, use, and assessment of chemicals and materials by advancing integrated chemical
evaluation strategies and decision support tools that promote human and environmental health

1
  Minor use pesticides are those that produce relatively little revenue for their manufacturers, for a variety of
reasons. They may be registered for a seldom seen pest, or for a crop that is not grown by a large number of
producers. However, minor crops include some high revenue fruit, vegetable, and ornamental crops.
2
 The IR-4 (Interregional Research Project No.4) program is involved in making sure that
pesticides are registered for use on minor crops. IR-4 helps by conducting research on minor use
pesticides, pesticides that would not otherwise be profitable to manufacture.
3
 Out of approximately 8,186 completed PRIA 2 actions more than 99% were completed on or
before the PRIA 2 due date.

             14-1-0042             EPA’s FY 2012 Annual PRIA Financial Statements                         3
and are protective of vulnerable species and populations. The research is focused on providing
integrated solutions in support of the Agency’s efforts to manage chemical (including pesticides
and toxics) risks. The data, methods and tools developed will guide the prioritization and testing
process, from screening approaches through more complex testing and assessments. The
research program’s major goals are: (1) to build the knowledge infrastructure to support
scientific discovery and sustainable decisions, (2) to develop and apply rapid, efficient, and
effective methods for improved chemical prioritization, screening, and testing, (3) to provide
models and tools necessary to make decisions supporting safe use across the chemical lifecycle.

Current testing and assessment approaches are resource intensive and lack data sufficient to meet
decision-making needs posed by the large and growing number of chemicals. The CSS ToxCast
Program performs cost-effective, state-of-the-art chemical screening to assess how chemicals
may affect human health. ToxCast simultaneously tests thousands of chemicals using hundreds
of high-throughput and high-content approaches. This allows the EPA to directly examine
environmental chemicals’ role in human disease processes, cell systems, and pathway targets.
The ToxCast program has moved beyond the proof-of-concept phase focus on pesticide actives.
Results of Phase II of this program, which covers 1,860 chemicals, will be released and publicly
available in FY13.

In providing research on methods, models, and data to support decision-making regarding
specific individual or classes of pesticides and toxic substances that are of high priority, the
program will continue to develop:
     Predictive biomarkers, quantitative structure activity relationships, and alternative test
        methods for prioritizing and screening chemicals for a number of adverse effects (e.g.,
        neurotoxicity, reproductive toxicity) that will lead to a reduction in and more efficient use
        of whole animals in toxicity testing; and
     Approaches for applying high-throughput screening and computational models developed
        under the ToxCast program to support prioritization of chemicals for further testing under
        EPA’s Endocrine Disruptor Screening Program.
     Data and protocols on the impact of waste water treatment technologies on pesticides and
        their products of transformation.

        To support the development of probabilistic risk assessments to protect endangered
populations of birds, fish, other wildlife, and non-target plants from pesticides while making sure
farmers and communities have the pest control tools they need, this program has four key
research components:
     Extrapolation among wildlife species and exposure scenarios of concern;
     Population biology to improve population dynamics in spatially-explicit habitats;
     Models for assessing the relative risk of chemical and non-chemical stressors; and
     Models to define geographical regional/spatial scales for risk assessment.
Methods for characterization of population-level risks of toxic substances to aquatic life and
wildlife also are being developed as part of the Agency’s long-term goal of developing
scientifically valid approaches for assessing spatially-explicit, population-level risks to wildlife
populations and non-target plants and plant communities from pesticides, toxic chemicals and
multiple stressors while advancing the development of probabilistic risk assessment.


           14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements             4
The program anticipates that the Agency will be better positioned to perform its mission of
protecting human health and the environment as scientific information becomes digitized and
readily available, methods and models to capture the complexities of chemical exposure and
hazard in toxicity testing are developed and approaches focused on development of more
sustainable alternatives are provided to decision-makers.

              Enforcement and Compliance Assurance Program Description

        The Pesticide Enforcement and Compliance Assurance Program focuses on pesticide
product and user compliance. These include problems relating to pesticide worker safety,
certification and training of applicators, ineffective antimicrobial products, food safety, adverse
effects, risks of pesticides to endangered species, pesticide containers and containment facilities,
and e-commerce and misuse. The enforcement and compliance assurance program provides
compliance assistance to the regulated community through its National Agriculture Compliance
Assistance Center, seminars, guidance documents, brochures, and other forms of communication
to ensure knowledge of and compliance with environmental laws.

         EPA’s grant support to states’ and tribes’ pesticide programs emphasizes its commitment
to maintaining a strong compliance and enforcement presence. Agency Cooperative Agreement
priorities for FY2008 - FY2010 include the enforcement of worker protection standards;
compliance monitoring and enforcement activities related to the newly promulgated pesticide
container and containment rules, and program performance reporting. Core program activities
include inspections of producing establishments; dealers/distributors/retailers; e-commerce;
imports and exports, and pesticide misuse. Additionally, through the Cooperative Agreement
resources we support inspector training and training for state/tribal senior managers, scientists,
and supervisors.




           14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements             5
                              Highlights and Accomplishments

Registration Financial Perspective

        During FY 2012, the Agency's obligations charged against the PRIA Fund for the cost of
registration were $13.1 million and 53.4 workyears. Of this amount, OPP obligated $7.4M in
PC&B.

         Appropriated funds are used in addition to Registration funds. In FY 2012, the Enacted
Operating Plan included approximately $ 47.2 million in appropriated funds for registration
activities. The unobligated balance in the Fund at the end of FY 2012 was $6.8 million.

       The Fund has two types of receipts: fee collections and interest earned on investments.
Of the $15.6 million in FY 2012 receipts, more than 99.9% were fee collections.

Registration Program Performance Measures

The following measures support the program's strategic goals of Healthy Communities and
Ecosystems as contained in the FY 2012 President’s budget.

       Measure 1: Number of new active ingredients registered.

       Results: In FY2012 EPA registered 35 new active ingredients, of which 21 are
biopesticides, 11 are conventional pesticides (including one new active ingredient with import
tolerance use only) and 3 are antimicrobial pesticides. This measure includes both reduced-risk
and non-reduced-risk pesticides.


       Measure 2: Progress in Registering Reduced-risk Pesticides.

        Results: In FY 2012, EPA registered 23 reduced-risk new active ingredients, 21 of
which were biological pesticides and 2 of which were conventional pesticides. Biological
pesticides are certain types of pesticides derived from such natural materials as animals, plants,
bacteria, and certain minerals. They are usually less toxic and are typically considered safer
pesticides than the traditional conventional chemicals; therefore, the 21 biopesticides new active
ingredients are counted as reduced-risk pesticides. Conventional “reduced risk” pesticides have
one or more of the following advantages over currently registered pesticides: low impact on
human health, low toxicity to non-target organisms, low potential for groundwater
contamination, lower use rates, low pest resistance potential, and compatibility with integrated
pest management strategies.




           14-1-0042        EPA’s FY 2012 Annual PRIA Financial Statements           6
       Measure 3: Number of New Food Uses Registered.

       Results: EPA registered 161 new uses for previously registered active ingredients. Of
these new uses, 158 were for conventional pesticides, 2 were for antimicrobial pesticides, and 1
was for a biopesticide


       Measure 4: Progress in Registering Reduced-risk New Uses.

       Results: Included in the new uses registered are 10 reduced-risk uses, of which 7 were
associated with conventional pesticides and 3 were biopesticide new uses.




           14-1-0042        EPA’s FY 2012 Annual PRIA Financial Statements           7
                  PRINCIPAL 

            FINANCIAL STATEMENTS





14-1-0042   EPA’s FY 2012 Annual PRIA Financial Statements   8
                                   TABLE OF CONTENTS

Financial Statements

       Balance Sheet                                                                   10     

       Statement of Net Cost                                                           11     

       Statement of Changes in Net Position                                            12         

       Statement of Budgetary Resources                                                13


Notes to Financial Statements

       Note 1.  Summary of Significant Accounting Policies                             14

       Note 2.  Fund Balance with Treasury                                             17         

       Note 3.  Other Assets                                                           17     

       Note 4.  General Property, Plant and Equipment                                  18

       Note 5.  Other Liabilities                                                      18         

       Note 6.  Payroll and Benefits Payable                                           19

       Note 7.  Income and Expenses from Other Appropriations                          20 

       Note 8.  Exchange Revenues, Statement of Net Cost                               22 

       Note 9.  Intragovernmental Costs and Exchange Revenue                           22

       Note 10. Reconciliation of Net Cost of Operations to Budget (formerly the
                      Statement of Financing)                                          23

       Note 11. Restatements                                                           24     





          14-1-0042          EPA’s FY 2012 Annual PRIA Financial Statements        9
                                Environmental Protection Agency 

                                              PRIA

                                         Balance Sheet 

                        For the Years Ended September 30, 2012 and 2011 

                                     (Dollars in Thousands) 


                                                                       FY 2012             FY 2011
AS S ETS
Intragovernmental:
   Fund Balance With Treasury (Note 2)                          $             12,443   $         11,241
   Ot her (Note 3)                                                                 -                 40
T otal Intragovernmental                                        $             12,443   $         11,281

Account s Receivable, Net (Note 5)                                                 -                  2
Prop ert y , Plant & Equip ment, Net (Note 4)                                  2,753              3,188
   Total Assets                                                 $             15,196   $         14,471




LIABILITIES
Intragovernmental:
   Account s Pay able and Accrued Liabilities                                     93                  133
   Ot her (Not e 5)                                                               74                   95
T otal Intragovernmental                                        $                167   $              228

Account s Pay able & Accrued Liabilities                        $                757   $            816
Pay roll & Benefits Pay able (Note 6)                                          2,022                962
Ot her (Not e 5)                                                              11,277             10,064
   Tot al Liabilities                                           $             14,223   $         12,070


NET POS ITIO N
Cumulat ive Result s of Op erations                                              973                 2,401

T otal Net Position                                                              973                 2,401

   Total Liabilities and Net Position                           $             15,196   $         14,471




                      The accompanying notes are an integral part of these statements.

           14-1-0042                  EPA’s FY 2012 Annual PRIA Financial Statements       10
                             Environmental Protection Agency 

                                           PRIA

                                   Statement of Net Cost 

                     For the Years Ended September 30, 2012 and 2011 

                                  (Dollars in Thousands)

                                                                                        Res tated
                                                                 FY 2012                FY 2011

COS TS

    Gro s s Co s ts (No te 9)                                $             15,848 $                 17,672
    Exp en s es fro m Oth er A p p ro p riatio n s (No te 7)               29,726                   35,993
    To tal Co s ts                                           $             45,574 $                 53,665
     Less:
    Earn ed Rev en u e (No tes 8 an d 9)                                   14,396                   15,809

NET COS T OF O PERATIONS (Note 9)                           $              31,178   $               37,856




                 The accompanying notes are an integral part of these statements.


         14-1-0042               EPA’s FY 2012 Annual PRIA Financial Statements             11
                          Environmental Protection Agency 

                                        PRIA

                        Statement of Changes in Net Position 

                  For the Years Ended September 30, 2012 and 2011 

                                (Dollars in Thousands)



                                                                                        Restated
                                                                      FY 2012           FY 2011
Cumulative Results of Operations:

Net Position - Beginning of Period                                        2,401             4,064
    Beginning Balances, as Adjusted                           $           2,401     $       4,064

Budge tary Financi ng S ource s:
       Nonexchange Revenue - Securities Investment                            1                 5
       Nonexchange Revenue - Other                                           12                 -
       Income from Ot her Ap p rop riations (Not e 7)                    29,726            35,993
   T otal Budget ary Financing Sources                        $          29,739     $      35,998

Other Fi nancing S ources (Non-Exchange)
      Imp uted Financing Sources                                               11             195
   T otal Other Financing Sources                             $                11   $         195

    Net Cost of Op erations                                             (31,178)          (37,856)

    Net Change                                                           (1,428)           (1,663)

Cumulative Results of Operations                              $            973      $       2,401




              The accompanying notes are an integral part of these statements.


      14-1-0042               EPA’s FY 2012 Annual PRIA Financial Statements             12
                                  Environmental Protection Agency
                                                PRIA
                                  Statement of Budgetary Resources
                          For the Years Ended September 30, 2012 and 2011
                                        (Dollars in Thousands)
                                                                                   FY 20 12               FY 20 11
BUDGETARY RES OURCES
Unobligated Balance, Brought Forward, October 1:                               $          4,247      $           7,393
      Unobligated balance brought forward, October 1, as adjusted                         4,247                  7,393
Recoveries of Prior Year Unpaid Obligations                                                   43                     -
Other changes in unobligated balance                                                          -                      (40)
Unobligated balance from prior year budget authority, net                                 4,290                  7,353
Appropriations (discretionary and mandatory)                                             15,619                 11,790
Spending authority from offsetting collections (discretionary and mandatory)                  39                     -
Total Budgetary Res ources                                                     $         19,948      $          19,143


S TATUS OF BUDGETARY RES OURCES
Obligations incurred                                                           $         13,192      $          14,896
Unobligated balance, end of year:
   Apportioned                                                                            6,756                  4,247
Total unobligated balance, end of period                                                  6,756                  4,247
Total S tatus of Budgetary Res ources                                          $         19,948      $          19,143


CHANGE IN OBLIGATED BALANCE
Unpaid Obligations, Brought Forward, October 1 (gross)                         $          6,955      $           7,701
   Obligated balance, start of year (net), before adjustments                             6,955                  7,701
Obligated balance, start of year (net), as adjusted                                       6,955                  7,701
Obligations incurred                                                                     13,192                 14,896
Outlays (gross)                                                                         (14,460)               (15,642)
Recoveries of prior year unpaid obligations                                                   (43)                   -
Obligated balance, end of period
   Unpaid obligations, end of year (gross)                                                5,644                  6,955
Obligated balance, end of period (net)                                         $          5,644      $           6,955


BUDGET AUTHORITY AND OUTLAYS , NET:
Budget authority, gross (discretionary and mandatory)                          $         15,658      $          11,790
Actual offsetting collections (discretionary and mandatory)                                   (39)                   -
Budget authority, net (discretionary and mandatory)                            $         15,619      $          11,790


Outlays, gross (discretionary and mandatory)                                   $         14,460      $          15,642
Actual offsetting collections (discretionary and mandatory)                                   (39)                   -
Outlays, net (discretionary and mandatory)                                               14,421                 15,642
Distributed offs etting receipts                                                        (15,622)               (11,790)
Agency outlays, net (discretionary and mandatory)                              $         (1,201)     $           3,852




                       The accompanying notes are an integral part of these statements.

            14-1-0042                 EPA’s FY 2012 Annual PRIA Financial Statements                     13
                            Environmental Protection Agency

                                          PRIA 

                             Notes to Financial Statements 

                                 (Dollars in Thousands) 

Note 1. Summary of Significant Accounting Policies

A. Reporting Entity

The U.S. Environmental Protection Agency (EPA or Agency) was created in 1970 by executive
reorganization from various components of other Federal agencies in order to better marshal and
coordinate federal pollution control efforts. The Agency is generally organized around the media
and substances it regulates -- air, water, land, hazardous waste, pesticides and toxic substances.

The Pesticide Registration Fund (PRIA) is authorized under the Pesticide Registration
Improvement Act of 2003 (which amended the Federal Insecticide, Fungicide, and Rodenticide
Act (FIFRA)), and became effective on March 23, 2004. This Act authorizes the EPA to assess
and collect pesticide registration service fees on applications submitted to register pesticides
covered by this Act, as well as assess and collect fees to register new active ingredients not listed
in the Registration Division 2003 Work Plan of the Office of Pesticide Programs. The Pesticide
Registration Improvement Renewal Act (commonly referred to as PRIA II) extended the
authority to collect pesticide registration service fees through FY 2012. PRIA II became
effective October 1, 2007. PRIA II was reauthorized with the passage of the Pesticide
Registration Improvement Extension Act (referred to as PRIA III) on September 28, 2012 and
became effective 2 days later on October 1, 2012. The PRIA Fund is accounted for under
Treasury symbol number 68X5374.

The PRIA fund may charge some administrative costs directly to the fund and charge the
remainder of the administrative costs to Agency-wide appropriations. Costs funded by Agency­
wide appropriations for FYs 2012 and 2011 were $29,726 thousand and $35,993 thousand,
respectively. This amount was included as Income from Other Appropriations on the Statement
of Changes in Net Position and as Expenses from Other Appropriations on the Statement of Net
Cost for FYs 2012 and 2011.

B. Basis of Presentation

These financial statements have been prepared to report the financial position and results of
operations of the EPA for the Pesticide Registration Fund (PRIA) as required by the Chief
Financial Officers Act of 1990 and the Pesticide Registration Improvement Act (PRIA) of 2003.
In the prior years, pesticide registration was included in the FIFRA financial statements. The
reports have been prepared from the books and records of the EPA in accordance with Office of
Management and Budget (OMB) Circular A-136 Financial Reporting Requirements, and the
EPA's accounting policies which are summarized in this note. These statements are therefore
different from the financial reports also prepared by the EPA pursuant to OMB directives that are
used to monitor and control the EPA's use of budgetary resources. The balances in these reports
have been updated from the EPA consolidated financial statements to reflect the use of FY 2012

          14-1-0042          EPA’s FY 2012 Annual PRIA Financial Statements             14
cost factors for calculating imputed costs for Federal civilian benefits programs. These updates
impact the Balance Sheet, Statement of Net Cost, and Statement of Changes in Net Position.

C. Budgets and Budgetary Accounting

Funding for PRIA is provided by fees collected from industry to offset costs incurred by EPA in
carrying out these programs. Each year the EPA submits an apportionment request to OMB
based on the anticipated collections of industry fees.

D. Basis of Accounting

Generally Accepted Accounting Principles (GAAP) for Federal entities is the standard
prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is the official
standard setting body for the federal government. The financial statements are prepared in
accordance with GAAP for federal entities.

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when a
liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of Federal funds. All
interfund balances and transactions have been eliminated.

E. Revenues and Other Financing Sources

For FYs 2012 and 2011, PRIA received funding from fees collected from registrants requesting
pesticide registrations. For FYs 2012 and 2011, revenues were recognized from fee collections
to the extent that expenses are incurred during the fiscal year.

F. Funds with the Treasury

The PRIA fund deposits receipts and processes disbursements through its operating account
maintained at the U.S. Department of the Treasury.

G. Investments in U. S. Government Securities

Investments in U. S. government securities are maintained by Treasury and are reported at
amortized cost net of unamortized discounts. Discounts are amortized over the term of the
investments and reported as interest income. PRIA holds the investments to maturity, unless
needed to finance operations of the fund. No provision is made for unrealized gains or losses on
these securities because, in the majority of cases, they are held to maturity.

H. General Property, Plant and Equipment

Purchases of the EPA-held personal equipment are capitalized if the equipment is valued at $25
thousand or more and has an estimated useful life of at least two years. Depreciation is taken on
a basic straight-line method over the specific asset’s useful life, ranging from two to15 years.

          14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements            15
The EPA shows property, plant and equipment at net of depreciation on its audited financial
statements.

All funds (except for the Working Capital Fund) capitalize software if those investments are
considered Capital Planning and Investment Control (CPIC) or CPIC Lite systems with the
provisions of SFFAS No. 10, “Accounting for Internal Use Software.” Once software enters the
production life cycle phase, it is depreciated using the straight-line method over the specific
asset’s useful life ranging from two to 10 years.

I. Liabilities

Liabilities represent the amount of monies or other resources that are likely to be paid by the
Agency as the result of an Agency transaction or event that has already occurred and can be
reasonably estimated. However, no liability can be paid by the Agency without an appropriation
or other collections. Liabilities for which an appropriation has not been enacted are classified as
unfunded liabilities and there is no certainty that the appropriations will be enacted. For PRIA,
liabilities are liquidated from fee receipts, since PRIA receives no appropriation. Liabilities of
the Agency arising from anything other than contracts can be abrogated by the Government
acting in its sovereign capacity.

J. Accrued Unfunded Annual Leave

Annual, sick and other leave is expensed as taken during the fiscal year. Sick leave earned but
not taken is not accrued as a liability. Annual leave earned but not taken as of the end of the
fiscal year is accrued as an unfunded liability. Accrued unfunded annual leave is included in the
Balance Sheet as a component of “Payroll and Benefits Payable.”

K. Retirement Plan

There are two primary retirement systems for Federal employees. Employees hired prior to
January 1, 1987, may participate in the Civil Service Retirement System (CSRS). On January 1,
1984, the Federal Employees Retirement System (FERS) went into effect pursuant to Public Law
99-335. Most employees hired after December 31, 1983, are automatically covered by FERS
and Social Security. Employees hired prior to January 1, 1984, elected to either join FERS and
Social Security or remain in CSRS. A primary feature of FERS is that it offers a savings plan to
which the Agency automatically contributes one percent of pay and matches any employee
contributions up to an additional four percent of pay. The Agency also contributes the
employer’s matching share for Social Security.

With the issuance of SFFAS No. 5, "Accounting for Liabilities of the Federal Government,"
accounting and reporting standards were established for liabilities relating to the federal
employee benefit programs (Retirement, Health Benefits, and Life Insurance). SFFAS No. 5
requires that the employing agencies recognize the cost of pensions and other retirement benefits
during their employees’ active years of service. SFFAS No. 5 requires that the Office of
Personnel Management (OPM), as administrator of the CSRS and FERS, the Federal Employees



          14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements            16
Health Benefits Program, and the Federal Employees Group Life Insurance Program, provide
federal agencies with the actuarial cost factors to compute the liability for each program.

L.   Offsetting Receipts

Beginning in FY 2007 OMB Circular A-136, Financial Reporting Requirements, requires that
the amount of distributed offsetting receipts reported in the Statement of Budgetary Resources
(SBR) should equal the amount recorded as offsetting receipts by the Department of the Treasury
(Treasury). Pesticide Registration Fees collected under PRIA are considered to be offsetting
receipts by Treasury.

M. Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenue and expenses during the reporting period. Actual results could differ from those
estimates.

Note 2. Fund Balance with Treasury

                                                       FY 2012                     FY 2011

 Revolving Funds:          Entity Assets        $             12,443         $            11,241



Note 3. Other Assets

Other Assets consist of advances for Interagency Agreements. As of September 30, 2012 and
2011, funds advanced that will be applied to future costs as incurred were $0 and $40 thousand
respectively.



Note 4. General Property, Plant and Equipment

General property, plant and equipment consists of the EPA-Held personal property, software,
and software in development.

As of September 30, 2012 and 2011, General Property, Plant and Equipment consist of the
following:




          14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements           17
                                    FY 2012                                   FY 2011

                     Acquisition  Accumulated     Net Book     Acquisition  Accumulated    Net Book

                       Value      Depreciation     Value         Value      Depreciation    Value

EPA-Held Equipment $        410 $         (305) $      105   $        410 $        (271) $      139
Software                  4,458         (1,810)      2,648         4,198         (1,149)      3,049
 Total             $      4,868 $       (2,115) $    2,753   $     4,608 $       (1,420) $    3,188




Note 5. Other Liabilities

For FYs 2012 and 2011, Payroll and Benefits Payable, non-federal, are presented on a separate
line of the Balance Sheet and in a separate footnote (see Note 6).

                                                    FY 2012              FY 2011

Other Intragovernmental Liabilities - Covered
by Budgetary Resources
Employer Contributions - Payroll                $            74   $                95
      Total                                     $            74   $                95

Other Non-Federal Liabilities - Covered by
Budgetary Resources
Advances from Non-Federal Entities              $       11,277    $           10,064
      Total                                     $       11,277    $           10,064




          14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements          18
Note 6. Payroll and Benefits Payable, Non-Federal:

                                                      FY 2012                   FY 2011

      Cove red by Budge tary Re sources
      Accrued Payroll Payable to Employees       $          415             $           327
      Withholdings Payable                                   28                          61
      Thrift Savings Plan Benefits Payable                   18                          17
              Total                              $          461             $           405


      Not Cove re d by Budge tary Re s ource s
      Unfunded Annual Leave                      $        1,561             $           557
            Total                                $        1,561             $           557


At various periods throughout FYs 2012 and 2011 employees with their associated payroll costs
were transferred from PRIA to the Environmental Programs and Management (EPM)
appropriation. (See graph in Note 7 below showing trend of hours charged per month to the
PRIA fund for FYs 2012 and 2011.) These employees were transferred in order to keep PRIA’s
obligations and disbursements within budgetary limits.

This process has led to variations between the year-end liabilities of FYs 2012 and 2011. The
liabilities covered by budgetary resources (both intragovernmental and non-Federal) represent
unpaid payroll and benefits at year-end. For FY 2012 Pay Period 26; no employees charged any
part of their salary and benefits to PRIA. As of September 30, 2012, the liabilities were $74
thousand and $461 thousand for employer contributions and accrued funded payroll and benefits
as compared to FY 2011’s balances of $95 thousand and $405 thousand, respectively.

In contrast, the unfunded annual leave liability is a longer term liability than the funded
liabilities. At various periods throughout FYs 2012 and FY 2011, approximately 211 and 130
employees, respectively, in total have been under PRIA’s accountability. As of September 30,
2012 and 2011 liability balances for unfunded annual leave were accrued to cover these
employees for a total of $1.5 million and $557 thousand, respectively.




          14-1-0042        EPA’s FY 2012 Annual PRIA Financial Statements          19
Note 7. Income and Expenses from Other Appropriations:

The Statement of Net Cost reports program costs that include the full costs of the program
outputs and consist of the direct costs and all other costs that can be directly traced, assigned on a
cause and effect basis, or reasonably allocated to program outputs.

During FYs 2012 and 2011, the EPA had two appropriations which funded a variety of
programmatic and non-programmatic activities across the Agency, subject to statutory
requirements. The EPM appropriation was created to fund personnel compensation and benefits,
travel, procurement, and contract activities. Transfers of employees from PRIA to EPM at
various times during FYs 2012 and 2011 (see Note 6 above) resulted in an increase in payroll
expenses in EPM, and these costs financed by EPM are reflected as an increase in the Expenses
from Other Appropriations on the Statement of Net Cost. The increased financing from EPM is
reported on the Statement of Changes in Net Position as Income from Other Appropriations.

In terms of hours charged to PRIA each month, the transfers of employees and their associated
costs during FYs 2012 and 2011 are shown below. Note that a decrease in hours charged to
PRIA normally signifies an increase in EPM’s payroll costs, and vice versa.




          14-1-0042          EPA’s FY 2012 Annual PRIA Financial Statements             20
                                                       PRIA ‐ Total Employee Hours by Month 
                      Thousands   35




                                  30




                                  25
  Em ploye e  Hours




                                  20



                                                                                                               FY 2012  Total  Hours
                                  15                                                                           FY 2011  Total  Hours




                                  10




                                   5




                                   0




The EPM costs related to PRIA are allocated based on specific EPM program codes which have
been designated for Pesticide registration activities. As illustrated below, there is no impact on
PRIA’s Statement of Changes in Net Position.


                                                    Income From Other         Expenses From Other            Net
                                                      Appropriations            Appropriations              Effect

                                       FY 2012 $                 29,726   $                   29,726    $          0

                                   Restated
                                   FY 2011 $                     35,993   $                   35,993    $          0




                                        14-1-0042      EPA’s FY 2012 Annual PRIA Financial Statements          21
Note 8. Exchange Revenues, Statement of Net Cost

For FYs 2012 and 2011, the exchange revenues reported on the Statement of Net Cost consists of
non-Federal amounts.

Note 9. Intragovernmental Costs and Exchange Revenue

                                                                             Restated
                                                         FY 2012             FY 2011
         COSTS:
           Intragovernmental                         $       2,171      $         2,661
           With the Public                                  13,677               15,011
           Expenses from Other Appropriations               29,726               35,993
          Total Costs                                $      45,574      $        53,665

         REVENUE:
           With the Public                                  14,396               15,809
          Total Revenue                              $      14,396      $        15,809

         NET COST OF OPERATIONS                      $      31,178      $        37,856


Intragovernmental costs relate to the source of the goods or services not the classification of the
related revenue.




          14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements            22
Note 10. Reconciliation of Net Cost of Operations to Budget (formerly the Statement of
Financing)
                                                                                                            Restated
                                                                                             FY 2012        FY 2011
RESOURCES USED TO FINANCE ACTIVITIES:
Budgetary Resources Obligated
   Obligations Incurred                                                                  $    13,192 $        14,896
   Less: Spending Authority from Offsetting Collections and Recoveries                           (82)              -
   Obligations, Net of Offsetting Collections                                            $    13,110 $        14,896
   Less: Offsetting Receipts (Note 1 Section L)                                                  (12)        (11,790)
     Net Obligations                                                                          13,098           3,106
Other Resources
   Imputed Financing Sources                                                             $        11    $        195
    Income from Other Appropriations (Note 7)                                                 29,726          35,993
   Net Other Resources Used to Finance Activities                                        $    29,737    $     36,188

Total Resources Used To Finance Activities                                               $    42,835    $     39,294

RESOURCES USED TO FINANCE ITEMS
NOT PART OF NET COST OF OPERATIONS
  Change in Budgetary Resources Obligated                                                $     1,286 $           913
  Offsetting Receipts Not Affecting Net Cost (Note 1 Section L)                                   12          11,790
  Resources that Finance Asset Acquistion                                                       (260)         (3,966)
 Total Resources Used to Finance Items Not
  Part of the Net Cost of Operations                                                     $     1,038    $      8,737

Total Resources Used to Finance the Net
 Cost of Operations                                                                      $    43,873    $     48,031

COMPONENTS OF NET COST OF OPERATIONS
THAT WILL NOT REQUIRE OR GENERATE
RESOURCES IN THE CURRENT PERIOD
Components Requiring or Generating Resources in Future Periods:
  Increase in Annual Leave Liability                                                     $     1,004 $           411
  Increase in Public Exchange Revenue Receivable                                         $   (14,396)        (15,810)
Total Components of Net Cost of Operations that
  Requires or Generates Resources in the Future                                          $   (13,392) $      (15,399)
Components Not Requiring/Generating Resources:
  Depreciation and Amortization                                                                  696           1,182
  Expenses Not Requiring Budgetary Resources                                                       1           4,042
Total components of Net cost of Operations that Will Not Require or Generate Resources           697           5,224

Total components of Net cost of Operations that Will Not Require
   or Generate Resources in the Current Period                                               (12,695)        (10,175)

Net Cost of Operations                                                                   $    31,178    $     37,856




           14-1-0042            EPA’s FY 2012 Annual PRIA Financial Statements                    23
Note 11. Restatements

EPA discovered an accounting error that resulted in the material misstatement of EPA’s financial
statements issued for the period FY 2011. As a consequence, EPA is correcting the errors by
restating its Statement of Net Cost and Statement of Changes in Net Position as of September 30,
2011.

The effect of the restatement is as follows:
                                                    FY 2011,
                                                  as Previously                              FY 2011,
                                                    Reported          Adjustment            as Restated
           Statement of Ne t Cost
Expenses from Other Appropriations (Note 6)             36,710                 (717)            35,993
Total Costs                                             54,382                 (717)            53,665
Net Cost of Operations (Note 9)                         38,573                 (717)            37,856

          State ment of Change s in Net Position
Income from Other Appropriations (Note 6)               36,710                 (717)             35,993
Total Budgetary Financing Sources                       36,715                 (717)             35,998
Net Cost of Operations (Note 9)                        (38,573)                 717             (37,856)




           14-1-0042          EPA’s FY 2012 Annual PRIA Financial Statements           24
                                                                                            Appendix B

                     Agency’s Response to Draft Report

    MEMORANDUM

    SUBJECT: 	 Response to Office of Inspector. General Draft Report No. 0A-FY13­
               0080 "Fiscal Years 2012 and 2011 (Restated) Financial Statements for
               the Pesticide Reregistration Fund," dated November 4, 2013

    FROM: 	          Maryann Froehlich
                     Acting Chief Financial Officer

                     James J. Jones, Assistant Administrator 

                     Office of Chemical Safety and Pollution


    TO: 	            Arthur A. Elkins, Jr.
                     Inspector General

 Thank you for the opportunity to respond to the issues and recommendations in the subject audit
 report. Following is a summary of the agency's overall position, along with its position on each
 of the report recommendations. We have provided high-level intended corrective actions and
 estimated completion dates to the extent we can.

 AGENCY'S OVERALL POSITION

 The agency concurs with the five recommendations.

 AGENCY’S RESPONSE TO REPORT RECOMMENDATION

No.         Recommendation                   High-Level Intended Corrective        Estimated Completion by
                                             Action(s)                             Quarter and FY
1           Office of the Chief Financial    Concur. OCFO corrected the            September 24, 2013
            Officer should correct the       financial statements to reflect the   (COMPLETED)
            Pesticide Registration Fund      proper expenses paid by other
            (“PRIA”) financial statements    appropriations.
            to reflect the proper expenses
            paid by other appropriations.




              14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements               25
2        OCFO should ask the Office       Concur. OCFO will request            March 28, 2014
         of Chemical Safety and           OCSPP to carefully review and        (annually)
         Pollution Prevention to          comment on the draft and final
         carefully review and             versions of the PRIA financial
         comment on the draft and         statements prior to their
         final versions of the PRIA       submission to OIG.
         Fund financial statements
         prior to their submission to
         the Office of Inspector
         General.
3        OCSPP, in consultation with      Concur in concept. OCSPP, in         December 31, 2014
         the OCFO and other subject       consultation with the OCFO and
         matter experts, develop a        other subject matter experts, will
         process that will provide        develop a process to ensure
         accurate and timely allocation   accurate allocations of expenses
         of Environmental Programs        from other appropriations that
         and Management expenses          support the PRIA fund. ·
         from other appropriations that
         support the PRIA fund.


4        OCFO should correct the          Concur. OCFO corrected the           February 26, 2013
         PRIA financial statements        PRIA financial statements to         (COMPLETED)
         to reflect the proper payroll    reflect the proper payroll
         liability amounts.               liability amounts.
5        OCFO should closely              Concur.                              September 30, 2014
         monitor the payroll
         liability amounts for
         PRIA at year- end.

    CONTACT INFORMATION

    If you have any questions regarding this response, please contact Christopher Osborne of the
    Office of Financial Management on (202) 564-5070.

    cc: 	David B loom
        Joshua Baylson
        Steven Bradbury
        Marty Monell
        Stefan Silzer
        Jeanne Conklin
        Richard Eyermann
       Paul Curtis
       Chris Osborne
       Sherri Anthony
       Raffael Stein
       Melvin Visnick
       Peter Caulkins

            14-1-0042         EPA’s FY 2012 Annual PRIA Financial Statements             26
Maria Sorrell
Michael Hardy
Vickie R ichardson
John Street
Margaret Hiatt
Robert L. Smith
Patrice Kortuem
Art Budelier
Sheila May
Janet Weiner
Janice Kern
Meshell Jones-Peeler
Dale Miller
Sandy Dickens
Sheldonna Proctor
Lorna Washington




    14-1-0042          EPA’s FY 2012 Annual PRIA Financial Statements   27
                                                                                    Appendix C

                                      Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator for Chemical Safety and Pollution Prevention
Assistant Administrator for Administration and Resources Management
Deputy Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intragovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Director, Office of Pesticide Programs, Office of Chemical Safety and Pollution Prevention
Deputy Director, Office of Pesticide Programs, Office of Chemical Safety and Pollution Prevention
Senior Advisor, PRIA Implementation, Office of Pesticide Programs, Office of Chemical Safety
        and Pollution Prevention
Director, Biopesticides and Pollution Prevention Division, Office of Pesticide Programs,
       Office of Chemical Safety and Pollution Prevention
Director, Pesticide Re-Evaluation Division, Office of Pesticide Programs, Office of Chemical
       Safety and Pollution Prevention
Director, Registration Division, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention
Director, Antimicrobials Division, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention
Director, Information Technology and Resources Management Division, Office of Pesticide
       Programs, Office of Chemical Safety and Pollution Prevention
Director, Office of Human Resources, Office of Administration and Resources Management
Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Director, Reporting and Analysis Staff, Office of the Chief Financial Officer
Director, Financial Policy and Planning Staff, Office of the Chief Financial Officer
Director, Research Triangle Park Finance Center, Office of the Chief Financial Officer
Director, Cincinnati Finance Center, Office of the Chief Financial Officer
Director, Las Vegas Finance Center, Office of the Chief Financial Officer
Director, Payroll Management and Outreach Staff, Office of Financial Services, Office of the
         Chief Financial Officer
Staff Director, Accountability and Control Staff, Office of Financial Services, Office of the Chief
       Financial Officer
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Administration and Resources Management
PRIA Audit Coordinator, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention



14-1-0042

